APPENDIX A
Note: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-122
In re: TODD C. BANK,
Applicant
Application for admission for membership
to the bar of the United States Court of
Appeals for the Federal Circuit.
ON APPLICATION
Per Curiam
ORDER
Todd C. Bank submits an application for
membership to this court’s bar. The court construes the
submission as additionally seeking to file a
non-conforming application, specifically, one that does
not require that the Oath of Admission be witnessed
and signed by a notary.
Upon consideration thereof,
It Is Ordered That:

la

(l) The request to file a non-conforming application
is denied.
(2) If Mr. Bank wishes to proceed, he must file a
conforming application form no later than July 5, 2019.

For the Court
June 17, 2019
Date

/s/Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

2a

APPENDIX B
Note: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-122
In re: TODD C. BANK,
Applicant
Application for admission for membership
to the bar of the United States Court of
Appeals for the Federal Circuit.
ON APPLICATION
Per Curiam
ORDER
Todd C. Bank moves for reconsideration of this
court’s June 17, 2019 order requiring him to file a
conforming application for membership to this court’s
bar.
This court previously considered and rejected Mr.
Bank’s assertion that he did not need to have the Oath
of Admission notarized. Mr. Bank’s motion has
provided no basis to reconsider that decision.
Accordingly,
3a

It Is Ordered That
The motion is denied
For the Court
June 27. 2019
Date

/s/Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

4a

APPENDIX C
6/3/2019, 9:03 am
From: administraten@cafc. uscourts. gov
Subject: Al3*32432*528_Todd C. Bank_Admission
Payment_05.31.19.pdf
To: tbank@toddbanklaw.com
Thank you for submitting your application for
admission to the bar of the U.S. Court of Appeals for
the Federal Circuit.
We are in receipt of your payment (A13-32432-528) in
the amount of $231.00. In order to complete the
processing of your application, please do the following:
1. You must attach to this email an updated attorney
admission application as your previous attorney
admission application does not include a current
notary seal or stamp with commission expiration date.
The commission expiration date cannot be handwritten
or typed.
The Clerk’s Office cannot complete the processing of
your application until the updated attorney admission
has been received.
Please contact the Clerk’s Office at 202-275*8000 for
assistance.
Sincerely,
The Clerk’s Office
5a

T\

U.S. Court of Appeals for the Federal Circuit
202-275-8000

.!

i

'K

\

6a

